                                             OFFICE OF INVESTIGATIONS

                                    CLOSEOUT MEMORANDUM




        OIG received an allegation of false statements on the Subject's CVS.' (The Subject has 2
funded NSF proposals.2) Analysis of the CVs indicated inaccuracies in several sections of the CVs.
In response to our inquiry letter, the Subject explained each inaccuracy andlor stated he was unaware.
of the inaccuracy. He added he had not intended to deceive reviewers with the inaccurate CV. The
Subject stated he would take corrective action to ensure his future CVs would reflect accurate


       OIG will send the Subject a Questionable Research Practices letter emphasizing NSF's
expectations that all statements in submitted proposals be true and complete, and reminding the
Subject to be more cautious in the future. Accordingly, this case is closed.
